 DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


   Independent Review of The U.S. Customs
   and Border Protection’s Reporting of FY
       2007 Drug Control Performance
                 Summary




OIG-08-40                    April 2008
                                                                           Office of Inspector General

                                                                           U.S. Department of Homeland Security
                                                                           Washington, DC 20528




                                            April 18, 2008


                                                Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the results of the review of the Performance Summary of the DHS’ Customs and
Border Protection (CBP) for the year ended September 30, 2007, for the Office of National Drug
Control Policy (ONDCP). We contracted with the independent public accounting firm KPMG LLP
to perform the review. CBP’s Management prepared the Performance Summary and Management
Assertions to comply with the requirements of the ONDCP Circular, Drug Control Accounting,
dated May 1, 2007. We do not express an opinion on the Performance Summary Report and
Management’s Assertions.

It is our hope that the information in this report will continue to result in effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                                Richard L. Skinner 

                                                Inspector General 

                         Performance Summary Report
                       U.S. Customs and Border Protection

I. PERFORMANCE INFORMATION

Measure 1: Inspection Narcotics Seizures – Cocaine, in pounds

Table 1: Inspection Narcotics Seizures – Cocaine, in pounds

                               FY 2003       FY 2004      FY 2005       FY 2006      FY 2007
 CBP Air and Marine              46,485       130,262      196,850       101,993      188,561
 Office of Border Patrol         14,892        14,819       12,338        12,885       14,242
 Office of Field Operations      76,200        44,600       53,700        53,755       78,568

(1) This measure focuses on the amounts of cocaine seized at and between the ports of
    entry by or with the participation of CBP officers, Border Patrol Agents, and CBP
    pilots. The measure is a statistical snapshot of the results of enforcement actions
    performed on a daily basis by CBP. Drug interdiction is a priority mission of CBP
    whose overall mission is all threats. CBP Officers, Agents and Air/Marine
    Interdiction assets respond to all threats with a goal of stopping all illegal activities
    with a border nexus. CBP’s activities contribute to the National Drug Control
    Strategy by securing the borders and disrupting the flow of drugs into the United
    States.

(2) CBP reiterates its longstanding opposition to setting drug seizure performance targets
    and believes that these targets are misleading at best. We believe that our drug
    interdiction partners share these feelings. CBP, therefore, did not provide a target for
    FY 2007 and will not provide FY 2008 targets for this measure.

(3) CBP does not set targets or goals for interdiction. CBP’s goal is to stop all illegal
    activity at the border or with border nexus. Illegal activity cannot be measured since it
    is an unknown, revealed only when discovered. In this sense, CBP would report
    100% success as appropriate action is taken upon discovery.

(4) The scope of this measure is the number of pounds of cocaine seized by Border Patrol
    Agents, CBP Officers, and CBP Air Interdiction Agents. The source of the data is a
    combination of Enterprise Data Warehouse (EDW) and Treasury Enforcement
    Communications systems. The data were pulled from the two systems using SQL
    queries and then populated into a simple Excel spreadsheet to combine the various
    office numbers. The information provided is reliable, complete and unbiased. The
    margin of error is under 5%.




                                                                                                1
Measure 2: Inspection Narcotics Seizures – Marijuana, in pounds

Table 2: Inspection Narcotics Seizures – Marijuana, in pounds

                              FY 2003     FY 2004      FY 2005     FY 2006         FY 2007
 CBP Air and Marine              10,856     134,069       79,369        110,781         308,792
 Office of Border Patrol      1,359,809   1,347,146    1,211,823      1,369,602       1,859,299
 Office of Field Operations     864,800     652,800       48,300        489,434         618,046
               CBP TOTAL      2,235,465   2,134,015    1,339,492      1,969,817       2,786,137

(1) This measure focus on the amounts of marijuana seized at and between the ports of
    entry by or with the participation of CBP officers, Border Patrol Agents, and CBP
    pilots. The measure is a statistical snapshot of the results of enforcement actions
    performed on a daily basis by CBP. CBP does not set goals or measures for number
    of seizures or number of pounds. Drug interdiction is a priority mission of CBP
    whose overall mission is all threats. CBP Officers, Agents and Air/Marine
    Interdiction assets respond to all threats with a goal of stopping all illegal activities
    with a border nexus. CBP’s activities contribute to the National Drug Control
    Strategy by securing the borders and disrupting the flow of drugs into the United
    States.

(2) CBP reiterates its longstanding opposition to setting drug seizure performance targets
    and believes that these targets are misleading at best. We believe that our drug
    interdiction partners share these feelings. CBP, therefore, did not provide a target for
    FY 2007 and will not provide FY 2008 targets for this measure.

(3) CBP does not set targets or goals for interdiction. CBP’s goal is to stop all illegal
    activity at the border or with border nexus. Illegal activity can not be measured since
    it is an unknown, revealed only when discovered. In this sense, CBP would report
    100% success as appropriate action is taken upon discovery.

(4) The scope of this measure is the number of pounds of marijuana seized by Border
    Patrol Agents, CBP Officers, and CBP Air Interdiction Agents. The source of the
    data is a combination of Enterprise Data Warehouse (EDW) and Treasury
    Enforcement Communications systems. The data were pulled from the two systems
    using SQL queries and then populated into a simple Excel spreadsheet to combine the
    various office numbers. The information provided is reliable, complete and unbiased.
    The margin of error is under 5%.




                                                                                                2
Measure 3: Inspection Narcotics Seizures – Heroin, in pounds

Table 3: Inspection Narcotics Seizures – Heroin in pounds

                              FY 2003      FY 2004      FY 2005      FY 2006      FY 2007
 CBP Air and Marine              N/A          N/A               52          143            10
 Office of Border Patrol             241          145          187          172           117
 Office of Field Operations        3,800        2,800        2,500        2,452         2,040
               CBP TOTAL           4,041        2,945        2,739        2,767         2,167



(1) This measure focus on the amounts of heroin seized at and between the ports of entry
    by or with the participation of CBP officers, Border Patrol Agents, and CBP pilots.
    The measure is a statistical snapshot of the results of enforcement actions performed
    on a daily basis by CBP. CBP does not set goals or measures for number of seizures
    or number of pounds. Drug interdiction is a priority mission of CBP whose overall
    mission is all threats. CBP Officers, Agents and Air/Marine Interdiction assets
    respond to all threats with a goal of stopping all illegal activities with a border nexus.
    CBP’s activities contribute to the National Drug Control Strategy by securing the
    borders and disrupting the flow of drugs into the United States.

(2) CBP reiterates its longstanding opposition to setting drug seizure performance targets
    and believes that these targets are misleading at best. We believe that our drug
    interdiction partners share these feelings. CBP, therefore, did not provide a target for
    FY 2007 and will not provide FY 2008 targets for this measure.

(3) CBP does not set targets or goals for interdiction. CBP’s goal is to stop all illegal
    activity at the border or with border nexus. Illegal activity can not be measured since
    it is an unknown, revealed only when discovered. In this sense, CBP would report
    100% success as appropriate action is taken upon discovery.

(4) The scope of this measure is the number of pounds of heroin seized by Border Patrol
    Agents, CBP Officers, and CBP Air Interdiction Agents. The source of the data is a
    combination of Enterprise Data Warehouse (EDW) and Treasury Enforcement
    Communications systems. The data were pulled from the two systems using SQL
    queries and then populated into a simple Excel spreadsheet to combine the various
    office numbers. The information provided is reliable, complete and unbiased. The
    margin of error is under 5%.




                                                                                              3
Report Distribution



      Department of Homeland Security
      Secretary 

      Deputy Secretary 

      Chief of Staff 

      Deputy Chief of Staff 

      General Counsel 

      Executive Secretary 

      Director, GAO/OIG Audit Liaison 

      Assistant Secretary for Policy 

      Assistant Secretary for Legislative Affairs 

      Assistance Secretary for Public Affairs 

      Under Secretary for Management 

      Chief Financial Officer 


      Office of National Drug and Control Policy
      Associate Director for Planning and Budget

      U.S. Customs and Border Protection
      Commissioner          

      Chief Financial Officer

      CBP Audit Liaison        


      Office of Management and Budget
      Chief, Homeland Security Branch 

      DHS OIG Budget Examiner 


      Congress
      Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
